OFFICE OF THE INSPECTOR GENERAL

      REPORT TO CONGRESS

    April 1, 2001 – September 30, 2001
Inspector General’s Semiannual Report       National Credit Union Administration




                              THE NCUA MISSION

 OUR CHARGE IS TO FOSTER THE SAFETY AND SOUNDNESS OF FEDERALLY
  INSURED CREDIT UNIONS AND TO BETTER ENABLE THE CREDIT UNION
   COMMUNITY TO EXTEND CREDIT FOR PRODUCTIVE AND PROVIDENT
PURPOSES TO ALL AMERICANS, PARTICULARLY THOSE OF MODEST MEANS.

 WE STRIVE TO ENSURE THAT CREDIT UNIONS ARE ENPOWERED TO MAKE
  THE NECESSARY BUSINESS DECISIONS TO SERVE THE DIVERSE NEEDS OF
THEIR MEM BERS AND POTENTIAL MEMBERS. WE DO THIS BY ESTABLISHING
    A REGULATORY ENVIRONMENT THAT ENCOURAGES INNOVATION,
FLEXIBILITY, AND CONTINUED FOCUS ON ATTRACTING NEW MEMBERS AND
              IMPROVING SERVICE TO EXISTING MEMBERS.



            THE OFFICE OF INSPECTOR GENERAL MISSION

         TO PROMOTE ECONOMY, EFFICIENCY, AND EFFECTIVENESS
                 IN NCUA PROGRAMS AND OPERATIONS,
       AS WELL AS PREVENT AND DETECT FRAUD, WASTE, AND ABUSE.




                                        i
Inspector General’s Semiannual Report               National Credit Union Administration



                     INDEX OF REPORTING REQUIREMENTS

                    OFFICE OF THE INSPECTOR GENERAL
                  NATIONAL CREDIT UNION ADMINISTRATION


 SECTION                       DATA REQUIRED                       RESPONSE      PAGE REF
  4(a)(2)    Review of Legislation and Regulations                                  19
  5(a)(1)    Significant Problems, Abuses, or Deficiencies                          10
             relating to the administration of programs and
             operations disclosed during the reporting period.
  5(a)(3)    Recommendations with Respect to Significant                             10
             Problems, Abuses, or Deficiencies.
             Significant Recommendations Described in Previous
  5(a)(3)    Semiannual Reports on Which Corrective Action Has        15
             Not Been Completed.
  5(a)(4)    Summary of Matters Referred to Prosecution
             Authorities and Prosecutions, Which Have Resulted.      None
             Summary of Each Report to the Board Detailing
  5(a)(5)    Cases Where Access to All Records Was Not               None
             Provided or Where Information Was Refused.
  5(a)(6)    List of Audit Reports Issued During the Reporting                       23
             Period.
  5(a)(7)    Summary of Particularly Significant Reports.                            10
             Statistical Tables on Audit Reports With Questioned                     21
  5(a)(8)    Costs.
  5(a)(9)    Statistical Tables on Audit Reports With                                22
             Recommendations That Funds Be Put To Better Use.
  5(a)(10)   Summary of Each Audit Report Issued Before the          None
             Start of the Reporting Period for Which No
             Management Decision Has Been Made by the End of
             the Reporting Period.
  5(a)(11)   Description and Explanation of Reasons for any          None
             Significant Revised Management Decision Made
             During the Reporting Period.
  5(a)(12)   Information Concerning Significant Management           None
             Decisions With Which the Inspector General is in
             Disagreement.




                                            ii
Inspector General’s Semiannual Report                    National Credit Union Administration


         INSPECTOR GENERAL'S MESSAGE TO THE CONGRESS

The National Credit Union Administration (NCUA) Office of Inspector General (OIG) saw
prolific activity this period on both the audit and investigative sides of the office. On the audit
side, information security issues remained a major focus, culminating in our independent
evaluation of NCUA’s compliance with the Government Information Security Reform Act
(GISRA). On the investigative side, we responded to an influx of cases presenting allegations of
Government credit card abuse. We also dedicated significant resources to the following issues
impacting on NCUA operations: (1) activities surrounding an agency-wide procurement of
notebook computers, in conjunction with the decision to migrate simultaneously from one
operating system to another; (2) completion of a lengthy and complex investigation into
allegations of criminal and administrative wrongdoing against two senior level officials; and (3)
several employee misconduct cases involving allegations of sexual harassment and undue
coercion, false claims, and neglect of fiduciary responsibilities, respectively.

The OIG intends to continue its mandate to help promote systems security at NCUA. We have
committed to working with information systems managers to ensure that systems integrity within
the agency is recognized as a priority and addressed accordingly. In this regard, we have made
specific recommendations to NCUA for improving entity-wide system security and planning,
and will continue to evaluate management’s efforts to comply with GISRA. Moreover, in light
of our renewed focus on employees’ use of government contractor- issued credit cards, we
recently determined to initiate a review of such use and to evaluate the adequacy of management
systems and controls that currently oversee the credit card program. We anticipate reporting on
that review in our next semiannual report.

Finally, during this reporting period we designated William A. DeSarno the new Deputy
Inspector General. Mr. DeSarno will continue to serve concurrently as the Assistant Inspector
General for Audit.

AUDIT HIGHLIGHTS

Information technology issues dominated the majority of audit resources this past reporting
period. Audit staff completed two mandated reviews: NCUA Website Privacy, required by
Public Law 106-554; and, an evaluation of NCUA’s compliance with the Government
Information Security Reform Act, required by Public Law 106-398. Also on the technology
front, we completed a review of NCUA’s notebook computer procurement and migration to a
new operating system. We also continued our oversight of the agency’s efforts under the
Government Performance Results Act by issuing a report on NCUA goals that rely on “call
reports” from credit unions as data sources for measuring performance.

INVESTIGATIVE HIGHLIGHTS

During the reporting period, the Office of Investigations (OI) initiated seven (7) new
investigations, of which one (1) case was reported on and closed. In addition, the OI reported on
and closed two (2) cases carried over from the previous reporting period.


                                                iii
Inspector General’s Semiannual Report                    National Credit Union Administration



The OI closed and issued the second of two reports on its investigation into allegations of
criminal and administrative misconduct against two senior NCUA officials. The second report,
addressing allegations of discrimination, preferential treatment, gross mismanagement, and abuse
of authority against the two officials, reported that the investigation had developed no evidence
to substantiate the allegations.

Moreover, the OI officially closed an investigation involving false claims for sick leave and
Office of Worker’s Compensation Continuation of Pay benefits.

The six new cases currently under investigation involve, respectively, the following issues: (1)
misuse of government contractor- issued credit card (3 cases); (2) employee misconduct based on
allegatio ns of sexual harassment and undue coercion; (3) false claims and false statements; and
(4) employee misconduct based on neglect of fiduciary responsibility.

During this period the OI responded to Freedom of Information Act (FOIA) and Privacy Act
(PA) requests in connection with the combined criminal/administrative investigation described
above involving two senior level officials. The OI further coordinated with the Office of General
Counsel on the latter’s response to FOIA and PA requests stemming from the same matter.

Finally, the NCUA OIG’s sole Special Agent provided vital assistance in the recovery effort at
the Pentagon, in the aftermath of the terrorist attack on September 11, 2001. This Special Agent
worked with other law enforcement officers from numerous agencies in combing through
literally tons of debris to collect criminal evidence of the hijacking, as well as the personal
remains and personal effects of the victims of the attack.

FUTURE PLANS

In continuing to emphasize agency-wide information system security planning and management,
the audit staff will follow up on management’s efforts to implement the OIG’s recommendations
for NCUA compliance with GISRA. Moreover, auditors will continue to perform several
projected management consulting reviews at the regional office level.

In connection with its plans to conduct an overall review, with the audit staff, of employee use of
the government contractor- issued credit card, OI plans to make presentations to NCUA central
and regional office staff to heighten employee awareness of proper use of the cards. To prevent
similar activity from occurring in the future, OI will alert employees that corrective
administrative remedies have been employed where misuse has been proven.




                                                     Frank Thomas
                                                     Inspector General



                                                iv
Inspector General’s Semiannual Report                                         National Credit Union Administration


                                            TABLE OF CONTENTS


INDEX OF REPORTING                                                                                                 inside
REQUIREMENTS...............................................................................................         front
                                                                                                                   cover


INSPECTOR GENERAL'S MESSAGE TO CONGRESS..............................                                                i


NATIONAL CREDIT UNION ADMINISTRATION......................................                                           1


     NCUA Highlights..........................................................................................       4


      Federally Ins ured Credit Union Highlights...................................................                  6


      Legislative Highlights....................................................................................     7


OFFICE OF THE INSPECTOR GENERAL...................................................                                   9


AUDIT ACTIVITY.............................................................................................         10


INVESTIGATION ACTIVITY...........................................................................                   16


LEGISLATIVE AND REGULATORY REVIEWS.........................................                                         19


OTHER INSPECTOR GENERAL ACTIVITIES..............................................                                    20


TABLE I – REPORTS WITH QUESTIONED COSTS..................................                                           21


TABLE II – REPORTS WITH RECOMMENDATIONS                                                                             22
          THAT FUNDS BE PUT TO BETTER USE................................


TABLE III – SUMMARY OF OIG ACTIVITY..............................................                                   23
Inspector General’s Semiannual Report               National Credit Union Administration


         NATIONAL CREDIT UNION ADMINISTRATION


T
       he National Credit Union Administration (NCUA) was established as an
       independent, federal regulatory agency on March 10, 1970. The agency is
       responsible for chartering, examining, supervising, and insuring federal credit
       unions. It also insures state-chartered credit unions that have applied for insurance
and have met National Credit Union Share Insurance requirements. NCUA is funded
entirely by credit unions; it does not receive any tax dollars. As of June 30, 2001, the
NCUA was supervising and insuring 6,230 Federal credit unions and insuring 3,915
state-chartered credit unions, a total of 10,145 institutions. This represents a loss of 106
Federal and 65 state-chartered institutions since December 31, 2000, for a total loss of
171 credit unions nation-wide.

NCUA operates under the direction of a Board composed of three members. Board
members are appointed by the President and confirmed by the Senate. They serve six-
year terms. Terms are staggered, so that one term expires every two years. The Board is
responsible for the management of the National Credit Union Administration, the NCUA
Share Insurance Fund, the Central Liquidity Facility, and the Community Development
Revolving Loan Program.

The National Credit Union Administration executes its program through its central office
in Alexandria, Virginia and regional offices in Albany, New York; Alexandria, Virginia;
Atlanta, Georgia; Lisle, Illinois; Austin, Texas; and Concord, California. NCUA also
operates the Asset Management and Assistance Center (AMAC) in Austin, Texas. Please
refer to the NCUA organizational chart on page 3.

The NCUA Board adopted its 2001 budget on November 16, 2000. The final revised
2001 budget of $140,568,580 represents an increase of $5.6 million over the 2000
budget. The Full Time Equivalent (FTE) staffing authorization for 2001 is 1,028, a
reduction of 21 positions over the 2000 total of 1,049.




                                                 2001        2000       Difference
           LOCATION                              FTE         FTE           FTE
           Central Office                         237         236            1
           Regional Offices & AMAC                173         173            -
           Field Examiners                        618         640          <22>
            Total Positions Authorized           1028        1049          <21>




                                             1
Inspector General’s Semiannual Report            National Credit Union Administration




           160,000

           140,000

           120,000

           100,000

            80,000                                                  Budget
            60,000

            40,000

            20,000

                0
                     1996   1997   1998   1999    2000   2001




              1060

              1040

              1020

              1000

               980                                                  FTEs
               960

               940

               920

               900
                     1996   1997   1998   1999    2000   2001




                                          2
Inspector General’s Semiannual Report                                   National Credit Union Administration



                            NCUA ORGANIZATION CHART


                                                       -NCUA BOARD-
                                                         CHAIRMAN


                                  OFFICE OF INSPECTOR                 OFFICE OF CREDIT
                                        GENERAL                      UNION DEVELOPMENT

                                         GENERAL                        NCUA BOARD
                                         COUNSEL                          STAFF


                            CENTRAL                      EXECUTIVE           REGIONAL
                            OFFICES                                          OFFICES
                                                         DIRECTOR


       OFFICE OF                       OFFICE OF                         REGION I            REGION II
    GENERAL COUNSEL             EXAMINATION & INSURANCE                 ALBANY, NY        ALEXANDRIA, VA


       OFFICE OF THE                     OFFICE OF                      REGION III          REGION IV
CHIEF INFORMATION OFFICER             CORPORATE CREDIT                 ATLANTA, GA           LISLE, IL
                                          UNIONS

      OFFICE OF                       OFFICE OF THE                     REGION V            REGION VI
   HUMAN RESOURCES               CHIEF FINANCIAL OFFICER                AUSTIN, TX         CONCORD, CA


       OFFICE OF                       OFFICE OF                  ASSET MANAGEMENT &
     ADMINISTRATION               INVESTMENT SERVICES              ASSISTANCE CENTER
                                                                        AUSTIN, TX


   OFFICE OF PUBLIC &                 OFFICE OF TRAINING &
  CONGRESSIONAL AFFAIRS                  DEVELOPMENT




                                                              3
Inspector General’s Semiannual Report                National Credit Union Administration



                               NCUA HIGHLIGHTS

PRESIDENT BUSH DESIGNATES DOLLAR CHAIRMAN

President George W. Bush designated Dennis Dollar Chairman of the NCUA Board,
effective September 13, 2001. Mr. Dollar has served as Acting Chairman since
February 8, 2001. His six- year term expires August 2003.

PRESIDENT BUSH ANNOUNCES INTENTION TO NOMINATE JOANN
JOHNSON TO NCUA BOARD

President Bush announced his intention to nominate JoAnn Johnson to a seat on the
NCUA Board. Designated nominee JoAnn Johnson has been an Iowa State Senator since
1994. She currently chairs the Iowa Senate Commerce Committee and was chair of the
Senate Ways and Means Committee from 1996 to 2000. Ms. Johnson will be filling the
six-year Board term that began August 2001, with the expiration of the Board term of
Yolanda Townsend Wheat.

NCUA ACTIVATES DISASTER RELIEF POLICY FOR NEW YORK AND
ARLINGTON, VIRGINIA

For the first time other than for a natural disaster, NCUA activated its disaster relief
policy in order to assist affected credit unions and their members in New York City and
Arlington, Virginia. Under the disaster assistance policy, NCUA encourages credit
unions to make loans with special terms and reduced documentation to affected members;
reschedule routine examinations of affected credit unions, if necessary; guarantee lines of
credit through the National Credit Union Share Insurance Fund; and make loans to meet
the liquidity needs of member credit unions through the Central Liquidity Facility.

NCUA DIRECTS CREDIT UNIONS TO CONDUCT COUNTER-TERROR
RECORDS SEARCH

NCUA issued a Letter to Credit Unions, in response to a formal request for assistance by
the Federal Bureau of Investigation, directing a records search aimed at producing any
information on transactions or accounts related to those suspected of participation in
terrorism against the United States.

NCUA BOARD APPROVES RISK-BASED EXAMINATION SCHEDULE

On July 26, 2001, the NCUA Board approved a risk-based examination schedule policy
for federal credit unions so the agency can better manage resources and risk. The new
policy provides staff with the flexibility to identify credit unions posing little or no risk to
the National Credit Union Share Insurance Fund and to extend the examination cycle
beyond the 12-month cycle where feasible.


                                               4
Inspector General’s Semiannual Report             National Credit Union Administration



CHAIRMAN DOLLAR ANNOUNCES FAITH-BASED INITIATIVE

After President Bush designated Mr. Dollar Acting Chairman in February 2001, the
Chairman directed agency management to examine its chartering and expansion
processes to identify and eliminate any unnecessary barriers to faith-based credit unions
through regulatory empowerment. This resulted in NCUA’s faith-based initiative,
announced in April. Nearly 500 faith-based credit unions with assets over $2 billion
provide affordable financial services to their members in the United States.




                                           5
Inspector General’s Semiannual Report              National Credit Union Administration



FEDERALLY INSURED CREDIT UNION HIGHLIGHTS
       redit unions submit semiannual call reports (financial and operational data) to

C      NCUA. An NCUA staff assessment of the June 30, 2001, semi-annual call
       reports submitted by all federally insured credit unions found that virtually all key
       financial indicators were healthy.

SLOWER LOAN GROWTH IN FIRST SIX MONTHS OF 2001

Lending grew 2.8 percent and shares grew 9.7 percent in the first six months of 2001
according to preliminary data from semi-annual call reports submitted by the nations
10,145 federally insured credit unions.

Every category of lending saw positive growth. New and used auto loans grew .68 and
4.77 percent, respectively. The largest category of loans, first mortgage real estate loans
grew 6.66 percent while other types of real estate loans grew 2.44 percent.

KEY FINANCIAL INDICATORS REMAIN STRONG

Looking at mid- year statistics for major balance sheet items and key ratios shows: Assets
grew 8.9 percent, up from $438.2 to $477.2 billion; Loans grew 2.8 percent, up from
$301.3 to $309.7 billion; Deposits grew 9.7 percent, up from $379.2 to $416.1 billion;
Equity grew 4.8 percent, up from $50.1 to $52.5 billion; Net worth to assets ratio
decreased from 11.43 percent to 10.94 percent; Delinquency ratio remains at its 1999
established historic low 0.7 percent; Return on average assets decreased from 1.04
percent to .96 percent and Membership increased 1.4 percent, up from 77.6 to 78.7
million people.

SAVINGS ALSO INCREASED IN FIRST SIX MONTHS

Regular shares increased 8.2 percent, up from $131 to $141.9 billion; Share certificates
increased 11.2 percent, up from $105 to $116.7 billion; Share drafts grew 5.8 percent, up
from $50.6 to $53.5 billion; and money market shares grew 16.8 percent, up from $50.5
to $59 billion.

ELECTRONIC FINANCIAL SERVICES

The number of credit unions offering web site access increased 8.9 percent to 3,807 credit
unions during the first six months of 2001. An additional 2,659 credit unions now offer
internet based electronic financial services.




                                            6
Inspector General’s Semiannual Report             National Credit Union Administration



                      LEGISLATIVE HIGHLIGHTS




HOUSE PASSES FREQUENT-FLIER BILL

The House of Representatives approved legislation on July 30, 2001, that would allow
federal employees to keep the frequent- flier miles they accumulate while traveling on
government business. The bill would also allow federal workers to receive seating
upgrades and access to airline clubs and facilities. Under current law, federal employees
must turn back the frequent- flier miles they earn while conducting official business so
that these miles can defray the cost of future government trips. The Bush administration
has endorsed the proposal, but it awaits passage by the Senate.

HOUSE PASSES SAVINGS INCENTIVE BILL

On May 2, 2001, the House overwhelmingly passed a bill to gradually increase the limits
on annual IRA contributions from $2000 to $5,000 by 2004 and increase 401(k)
contributions from $10,500 to $15,000 by 2006. While it would also allow people over
50 to make catch- up contributions, the bill does not raise the current income limits for
tax-deferred IRA contributions. Senate approval is uncertain.

CONSUMER PRIVACY LAW LIMITS RELEASE OF ACCOUNT NUMBERS

Federal financial regulators issued a joint letter in May 2001 to clarify that even with
customer consent, a “financial institution shall not disclose, other than to a consumer
reporting agency, a consumer account number or similar form of access number or access
code for a credit card account, deposit account, or transaction account to any
nonaffiliated third party for use in telemarketing, direct mail marketing, or other
marketing through electronic mail to the consumer,” based on Section 502(d) of the
Gramm-Leach-Bliley Act.




                                           7
Inspector General’s Semiannual Report            National Credit Union Administration



MISCELLANEOUS LEGISLATIVE UPDATE

Central Liquidity Facility Cap: Chairman Dollar, on May 16, 2001, urged members of
the House Appropriations Subcommittee on VA, HUD and Independent Agencies to set
the Central Liquidity Facility’s (CLF) cap on new loans for the year 2002 no lower than
the $1.5 billion level in place for the current year. The CLF serves as an additional
liquidity source for credit unions during short-term, seasonal, or protracted periods of
hardship.




                                           8
Inspector General’s Semiannual Report           National Credit Union Administration




             OFFICE OF THE INSPECTOR GENERAL


T     he Office of the Inspector General was established at the NCUA in 1989 under the
      authority of the Inspector General Act of 1978, as amended in 1988. The staff
      consists of the Inspector General, a Deputy Inspector General, an Assistant
Inspector General for Investigations/Counsel, a Senior Special Agent, two Senior
Auditors, a Senior Information Technology Auditor and an Office Administrator.

The Inspector General reports to, and is under the general supervision of, the NCUA
Board. The Inspector General is responsible for:

1. Conducting, supervising, and coordinating audits and investigations of all NCUA
   programs and operations;

2. Reviewing policies and procedures to ensure efficient and economic operations as
   well as preventing and detecting fraud, waste, and abuse;

3. Reviewing existing and proposed legislation and regulations to evaluate their impact
   on the economic and efficient administration of agency programs; and

4. Keeping the NCUA Board and the Congress apprised of significant findings and
   recommendations.




                                          9
Inspector General’s Semiannual Report             National Credit Union Administration



                               AUDIT ACTIVITY

AUDIT REPORTS ISSUED


NCUA Website Privacy and “Cookies” Review
OIG-01-06 May 31, 2001

Public Law 106-554 required Inspectors General to submit a report to Congress relating
to the collection of personally identifiable information. In addition, the National Credit
Union Administration, Office of Inspector General took this opportunity to review
NCUA’s compliance with Office of Management and Budget Memoranda M-99-18 and
M-00-13, which requires agencies to post Internet privacy policies, and generally
prohibits the use of persistent cookies on agency web sites.

We found that NCUA’s Internet Privacy Statement substantially complied with OMB
policy. We also determined NCUA was in compliance with its policy prohibiting the use
of cookies on its Internet site. NCUA collects limited personal information through its
web site and does not create any user profiles, or sell any personal information that is
obtained via the web site.

The OIG review focused on the collection of personal information through electronic
submission of data and the use of cookies on NCUA’s external Internet site. The review
included inquiry of personnel, document review and analysis. We also tested 384 pages
on NCUA’s web site to determine if cookies were placed on visitor’s computers.

The OIG report offered two recommendations for improving web site policy notification.


Notebook Procurement and Windows 2000 Migration Review
OIG-01-07 July 10, 2001

NCUA’s January 2000 notebook computer procurement and migration to Windows 2000
Professional (Windows 2000) required significant agency resources. NCUA senior
management was interested in a review of the notebook procurement and Windows 2000
migration risks, and we viewed this as an opportunity to present lessons learned and
provide recommendations for improvement in a recurring event.

This review contained two major objectives. The first was to determine what
methodology was used to acquire new computers and Windows 2000 and whether this
methodology was followed; and the second objective was to determine if the agency was
exposed to unreasonable risks by implementing an operating system before it was
commercially available.



                                           10
Inspector General’s Semiannual Report            National Credit Union Administration



The NCUA Board approved Simplified Procurement Procedures for the notebook
procurement. We determined that the agency substantially complied with Simplified
Procurement Procedures, as well as NCUA policies and procedures and NCUA’s
unofficial Methodology for Acquisition of New Computers & Printers. The agency
purchased Windows 2000 off GSA schedule, which was deemed compliant with NCUA
policies and procedures. Actual costs incurred for the notebooks and associated hardware
were approximately $2 million less than budgeted. We identified many other strengths
including NCUA’s evaluation of equipment and vendors; and obtaining quotes from
several sources. In addition, the Information Systems Oversight Committee (ISOC) was
heavily involved in the notebook procurement process, including approval and
presentation to the Board. The report also noted some areas where NCUA needs to
strengthen planning and documentation.

We determined that the agency implemented an early copy of Windows 2000 that was
obtained directly from Microsoft in December 1999 and was the same release placed on
store shelves in February 2000. There were risks with implementing Windows 2000
prior to its general use in the industry. However, those risks were not unreasonable and
many steps were taken to mitigate some of the risks.

Although the CIO is responsible for the agency’s architecture as defined in the Clinger-
Cohen Act of 1996 and the CIO’s position description, NCUA’s CIO informed the ISOC
and the Office of Executive Director (OED) of his impending decision to migrate from
Windows NT 4.0 to Windows 2000. The CIO identified the benefits of Windows 2000
and took action to mitigate some of the risks of early adoption. The upgrade to Windows
2000 was inevitable, so the CIO weighed the options of adopting Windows 2000 with our
new hardware, upgraded office automation software, and examination system versus
waiting to a later date. The OIG was informed that if Windows 2000 was not available to
meet our training schedule, our contingency plan was to continue with the NT platform.
There was insufficient evidence to support that NT was a viable contingency plan. In
addition, there was insufficient documentation to determine the level of testing
performed. However, the post implementation results indicate that there were no
significant issues with NCUA’s migration to Windows 2000.

We made 22 specific recommendations regarding lease analysis, budget estimates,
shopping GSA schedule, improvements in vendor listing, compressed time frames,
improved project planning and documentation.


Results Act: Call Report Performance Measures
OIG-01-08 July 5, 2001

The Government Performance Results Act of 1993 (Results Act) seeks to improve the
effectiveness, efficiency, and accountability of federal programs. The Results Act
requires government agencies to develop strategic plans, annual performance plans, and
performance reports. The agency performance plan must also include objective,
quantifiable, and measurable performance goals. Natural person and corporate credit


                                          11
Inspector General’s Semiannual Report               National Credit Union Administration


unions periodically report their financial status to the National Credit Union
Administration (NCUA) using call report forms 5300 and 5310 respectively. NCUA has
identified the call reports as key data sources to measure progress in achieving agency
strategic goals meeting the requirements of the Results Act.

We performed a review of the NCUA-identified goals using call reports as data sources
for the year 1999 and to a lesser extent 2000. The purpose of the review was to evaluate
and determine the reliability of credit union call report information identified as Results
Act performance measurements.

Timely information is critical to ensure appropriate regulatory action. We found that all
other federal financial regulators require quarterly call report information from their
insured institutions. Credit union call reports are available semi-annually from all natural
person credit unions with assets less than $50 million and quarterly from credit unions
with assets greater than $50 million. Because of the size of a significant number of
federally insured credit unions, credit unions representing the vast majority of assets are
submitting call reports each quarter. In instances where full information is available for
all natural person credit unions twice a year, the agency attempts to remedy the situation
by using examination information. However, this is an imperfect situation and can result
in delayed or incorrect information available to agency management in making
corrections to plans and measuring goal achievement.

Call report information is available on a monthly basis from all corporate credit unions.
The report commended NCUA’s Office of Corporate Credit Unions for its system of
monthly call reports from corporate credit unions and the monthly update reports
prepared by staff. The reports and follow- up provide timely information to adjust, as
needed regulatory efforts.

Overall, we concluded that the call report system, and the methods used by the agency in
verifying and validating the call report information for the identified goals, is appropriate.
The report provided six recommendations for consideration and system improvement.


OIG Evaluation: Government Information Security Reform Act - 2001
OIG-01-09 September 7, 2001

The Government Information Security Reform Act (GISRA), Public Law 106-398,
requires Inspectors General (IG) to perform independent evaluations to:

    •   Assess compliance with GISRA and agency security policies and procedures;
        and
    •   Test effectiveness of information security control techniques for a subset of the
        agency’s information systems.




                                             12
Inspector General’s Semiannual Report              National Credit Union Administration


We determined that NCUA is not yet in compliance with GISRA. The following
represents the agency’s status toward compliance with key GISRA provisions as of
August 2001:

   •   NCUA needs to develop an agency-wide security program. NCUA developed a
       draft security policy that will be incorporated in the security program. However
       this policy has not been approved by the agency head or disseminated to
       personnel with key responsibilities.
   •   NCUA needs to perform formal risk assessments.
   •   NCUA program managers need to perform periodic management testing of
       controls and perform their annual program review as required by GISRA.
   •   For the reporting cycle, NCUA has provided some security training to personnel
       with significant security responsibilities, and security awareness training is
       provided to all employees on a 3-year cycle coinciding with equipment
       replacement. New examiners are provided with basic computer training, which
       includes security awareness. Contractors and new non-examiner personnel are
       not provided any security awareness training.
   •   NCUA needs to formalize an incident response program.
   •   NCUA’s Office of the Chief Information Officer (OCIO) needs to perform the
       annual security program review required by GISRA.
   •   NCUA has not yet determined the resources required to implement the security
       program and incorporate this program in the budget and strategic planning
       process.

Although we concluded that the agency is not in compliance with GISRA, we have not
opined on actual security measures in place at the agency. According to the Chief
Information Officer (CIO), NCUA has taken several steps to provide a secure
environment, and as a result NCUA has not become aware of any significant security
breaches. Some examples of proactive security practices include: matching risk to
security controls; building controls into applications during development; and moving
forward with new technologies that have increased security.

The NCUA OIG with assistance from independent public accounting firms performed
two audits during the reporting cycle that tested the effectiveness of information security
and internal controls. This evaluation report briefly discusses the findings of these two
audits.

We presented 18 recommendations in this evaluation report describing actions that
NCUA needs to take in order to comply with GISRA.




                                            13
Inspector General’s Semiannual Report             National Credit Union Administration


AUDITS IN PROGRESS


NCUA Budget Process

We had begun preliminary planning on a review of the NCUA budget process but this
review was suspended because of higher priority commitments. Once this review is
resumed, we will evaluate the budget process to see if it can be improved to provide more
useful and reliable information to the NCUA Board. Specific objectives include how
well the NCUA budget accounts for the cost of meeting each of the agency’s strategic
goals; and how well the events leading up to approval of the NCUA budget are
effectively planned.


Management Consulting Review – Region VI

The OIG will be providing assistance to NCUA’s Region VI in determining the
effectiveness of the regional Small Credit Union Program process.


Management Consulting Review – Region IV

During this management review, the OIG is providing assistance to Region IV in
determining the effectiveness of its regional employee appraisal, individual development,
and training processes.


Management Review of the SmartPay Procurement and
Travel Charge Card Programs

We have initiated a joint audit/investigative review of NCUA Visa cardholders’
adherence to the terms of their agreement under the SmartPay program. We will evaluate
the extent of misuse of both travel and purchase cards, if any, as well as to evaluate the
adequacy of management systems and controls to prevent abuse.




                                           14
Inspector General’s Semiannual Report            National Credit Union Administration


SIGNIFICANT AUDIT RECOMMENDATIONS ON WHICH CORRECTIVE
ACTION HAS NOT BEEN COMPLETED

As of September 30, 2001, there were two audit reports issued over six months ago
containing significant recommendations that have not been fully implemented. Of the 42
recommendations made in the SAP Security Review, there are three significant
recommendations that are in the process of implementation and management anticipates
completion by the end of the year. In addition, in the Financial Statement Audit, there
was one significant recommendation that is scheduled for implementation by the end of
the year. These recommendations relate to information technology access controls and
management anticipates implementation of these recommendations before the next
reporting period.




                                          15
Inspector General’s Semiannual Report            National Credit Union Administration



                       INVESTIGATIVE ACTIVITY
      n accordance with professional standards and guidelines established by

 I    the Department of Justice, the Office of Investigations performs
      investigations of both criminal and administrative wrongdoing involving
      agency programs. Our investigative jurisdiction focuses on activities
designed to promote economy, effectiveness, and efficiency, as well as
fighting fraud, waste, and abuse in agency programs. In addition to our
proactive efforts to deter misconduct and promote integrity awareness among agency
employees, we investigate referrals and direct reports of employee misconduct.
Investigations may involve possible violations of regulations regarding employee
responsibilities and conduct, Federal criminal law, and other statutes and regulations
pertaining to the activities of NCUA employees. Investigative findings may lead to
criminal prosecution, civil prosecution, or administrative action.

Moreover, we receive complaints from credit union members that involve NCUA
employee program responsibilities. These complaints are examined to determine whether
there is any allegation of NCUA employee misconduct. If not, the complaint is referred
to the appropriate regional office for response, or closed if contact with the regional
office indicates that the complaint has already been appropriately handled.


                     Investigative Operations


                         Contacts/inquiries/investigations carried      2
                           forward from previous reporting period

                         Contacts initiated during reporting period     7

                         Contacts closed for lack of verifiable evidence 0
                           or referred to another office

                         Reports issued and/or matters closed           3

                         Management Implication Reports issued          0

                         Matters Remaining Open                         6




                                          16
Inspector General’s Semiannual Report             National Credit Union Administration


OFFICE OF INVESTIGATIONS ACTIVITIES

OPEN INVESTIGATIONS

During this reporting period, OI received an influx of cases alleging employee misuse of
the government contractor- issued travel credit card. Currently, OI has three (3) open
investigations on travel card misuse. Moreover, OI has undertaken an overall review, in
conjunction with the OIG audit staff, of employee use of government contractor- issued
credit cards—both travel and purchase cards—as well as the adequacy of management
systems and controls that currently oversee the credit card program.

The OI has three (3) additional cases that remain open: one involving allegations of false
claims and false statements; the second involving employee misconduct based on
allegations of sexual harassment and undue influence; and the third alleging employee
misconduct based on neglect of fiduciary responsibility in the conduct of official duties.

The OI anticipates completing its investigations of and reporting on these cases in the
next semiannual report.

CLOSED INVESTIGATIONS

Criminal and Administrative Misconduct
OIG-I-CO-00-03(1) and (2)

The OI closed its investigation based on a broad array of allegations—both criminal and
administrative—referred to it concerning misconduct on the part of two senior agency
officials. During the subject reporting period, the OI issued the second of two reports on
this matter. The first report was issued in the previous reporting period, and addressed
allegations of criminal misconduct and violations of the standards of conduct for federal
employees. That report found that no criminal wrongdoing occurred. However, one
senior official was found to have violated standards of ethical conduct. With regard to
the second phase of the investigation, involving administrative allegations of
discrimination, preferential treatment, gross mismanagement, and abuse of authority
against the same two senior officials, during this reporting period the OI completed its
investigation and issued a second report. The investigation developed no evidence to
substantiate the administrative allegations. NCUA management subsequently advised OI
that it would not rely on the OIG’s final Reports of Investigation in this matter. OI
officially closed the case after management notified it of its proposed action against one
senior official based on the ethics violations.

False Claims for Workers’ Compensation Benefits
OIG-I-CO-00-04

The OI investigated an allegation that an employee had verbally abused and threatened
another employee. During the course of the investigation, the OIG developed additional
information that the employee had submitted false claims for sick leave and Office of



                                           17
Inspector General’s Semiannual Report            National Credit Union Administration


Worker’s Compensation Program (OWCP) Continuation of Pay (COP) benefits. OI
issued a Report of Investigation and management responded accordingly.

Misuse of Travel Card
OIG-I-CO-01-02

The OI initiated and, subsequently, closed an investigation based on allegations that an
employee had misused her government contractor- issued credit card. The investigation
determined that the employee had charged in excess of $2,500 in personal charges and
was moreover delinquent in making payments on the card. The employee was suspended
after the OI issued its report.




                                          18
   Inspector General’s Semiannual Report             National Credit Union Administration



              LEGISLATIVE AND REGULATORY REVIEWS

   Section 4(a) of the Inspector General Act requires the Inspector General to review
   existing and proposed legislation and regulations relating to the programs and operations
   of NCUA and to make recommendations concerning their impact. Moreover, we
   routinely review proposed agency instructions and other policy guidance, in order to
   make recommendations concerning econo my and efficiency in the administration of
   NCUA programs and operations and the prevention and detection of fraud, waste and
   abuse.

   During the reporting period, the OIG reviewed 18 items, including proposed changes to
   legislation and regulations, OMB guidance, and internal directives that could affect
   NCUA. Of significant interest was our review of draft OMB guidance on implementing
   the Government Information Security Reform Act (GISRA). In reviewing this guidance,
   we focused in particular on the importance of conveying to NCUA managers the need to
   fully coordinate their activities under the Act with OIG evaluation efforts. Finally we
   reviewed several new legislative items arising from the events of September 11, 2001,
   that have a government-wide impact.

              SUMMARY OF STATUTES AND REGULATIONS REVIEWED
Legislation
H.R. 2547           Erroneous Payments Recovery Act of 2001
H.R. 2888           2001 Emergency Supplemental Appropriations Act for Recovery from
                    and Response to Terrorist Attacks on the United States
Regulations
                                            Title
12 CFR 709          Involuntary Liquidation of FCU’s and Adjudication of Creditor Claims
                    Involving Federally-Insured Credit Unions in Liquidation
12 CFR 707          Truth in Savings Act
12 CFR 749          Records Preservation
12 CFR 721          Incidental Powers
12 CFR 712          Credit Union Service Organizations
12 CFR 703          FCU Investment and Deposit Activities
12CFR 702.101(c)    Prompt Corrective Action; Requirements for Insurance
       702.103(b)
       741.6(a)
12 CFR 701.23       Conflict of Interest: Purchase, Sale or Pledge of Eligible Obligations
        741.8
12 CFR 701.31(d)    Nondiscrimination in Advertising
12 CFR 704          Corporate Credit Unions
12 CFR 205          Electronic Fund Transfers
 5 CFR 537          Repayment of Student Loans



                                              19
Inspector General’s Semiannual Report            National Credit Union Administration



                         OTHER OIG ACTIVITIES
STAFF TRAINING AND DEVELOPMENT


The Inspector General (IG), Frank Thomas continued to participate in the Financial
Institutions Regulatory Committee of the Executive Council on Integrity and Efficiency
(ECIE). The Committee provides a forum for Inspectors General of the NCUA, the
Federal Reserve System, the Department of the Treasury, the FDIC, the Federal Housing
Finance Board, the Securities and Exchange Commission, and the Farm Credit
Administration to: discuss matters of mutual interest; coordinate relevant audits,
investigations, legislative, and regulatory matters; and seek uniform approaches to
handling similar issues.

Deputy IG, William DeSarno attended the Inspectors General Institute and has received
the designation of Certified Inspector General by the Association of Inspectors General.
Deputy IG, DeSarno attended the Federal Financial Institutions Regulatory OIG Council
Meetings. Deputy IG, DeSarno also attended the NCUA Management Conference in St.
Petersburg, Florida. Senior Auditor, Charles Funderburk attended a course on Microsoft
Visio. Senior Auditor, Dwight Engelrup attended a Senior Examiner Update and
Strategic Planning for Government Organizations.        Senior Information Technology
Auditor, Tammy Rapp attended seminars on Auditing and Security of Cisco Routers and
Intrusion Detection, a Federal Financial Institutions Examination Council, Information
System and Technology Conference, and an Overview of OMB A-130, IT Strategic
Plans, and the Investment Review Process. Office Administrator, Linda Queen attended
a seminar on Office Management and Processing Personnel Actions. She also attended
the NCUA Administrative Conference in Mystic, Connecticut.

Assistant IG for Investigations (AIGI) and Counsel to the IG Sharon Separ attended the
Merit Systems Protection Board Law Trends and Updates training course. AIGI Separ
also attended the NCUA Management Conference in St. Petersburg, Florida.




                                          20
     Inspector General’s Semiannual Report               National Credit Union Administration




                                             TABLE I

                         INSPECTOR GENERAL ISSUED REPORTS
                               WITH QUESTIONED COSTS

                                                       Number of    Questioned      Unsupported
                                                        Reports       Costs            Costs

A.    For which no management decision had
      been made by the start of the reporting             0             $0               $0
      period.

B.    Which were issued during the reporting
      period.                                             0             0                0

      Subtotals (A + B)                                   0             0                0

C.    For which management decision was
      made during the reporting period.                   0             0                0

      (i) Dollar value of disallowed costs                0             0                0

      (ii) Dollar value of costs not disallowed           0             0                0

D.    For which no manage ment decision has
      been made by the end of the reporting               0             0                0
      period.

E.    Reports for which no management
      decision was made within six months of              0             0                0
      issuance.




     Questioned costs are those costs the OIG has questioned because of alleged violations of
     laws, regulations, contracts, or other agreements; findings which at the time of the audit
     are not supported by adequate documentation; or the expenditure for the intended purpose
     is unnecessary or unreasonable.

     Unsupported costs (included in "Questioned Costs") are those costs the OIG has
     questioned because of the lack of adequate documentation at the time of the audit.




                                                  21
Inspector General’s Semiannual Report            National Credit Union Administration



                                      TABLE II

               INSPECTOR GENERAL ISSUED REPORTS
      WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                           Number of          Dollar
                                                            Reports           Value

 A.    For which no management decision had been
       made by the start of the reporting period.               0               $0

 B.    Which were issued during the reporting period.           0               0

       Subtotals (A + B)                                        0               0

 C.    For which management decision was made
       during the reporting period.                             0               0

       (i) Dollar value of recommendations agreed to
       by management.                                          N/A              0

       (ii) Dollar value of recommendations not
       agreed to by management.                                N/A              0

 D.    For which no management decision was made
       by the end of the reporting period.                      0               0

 E.    For which no management decision was made
       within six months of issuance.                           0               0


Recommendations that "Funds to be Put to Better Use" are those OIG recommendations
that funds could be used more efficiently if management took actions to reduce outlays,
de-obligate funds from programs/operations, avoid unnecessary expenditures noted in
pre-award reviews of contracts, or any other specifically identified savings.




                                          22
 Inspector General’s Semiannual Report        National Credit Union Administration



                                   TABLE III

                       SUMMARY OF OIG ACTIVITY
                APRIL 1, 2001 THROUGH SEPTEMBER 30, 2001

PART I – AUDIT    REPORTS ISSUED
Report                                                                    Date
N umber           Title                                                   Issued
OIG-01-06         NCUA Website Privacy and “Cookie” Review                5/31/01
OIG-01-07         Notebook Procurement and Windows 2000 Migration         7/10/01
OIG-01-08         Results Act: Call Report Performance Measures           7/05/01
OIG-01-09         Government Information Security Reform Act - 2001       9/07/01

PART II – AUDITS IN PROCESS (as of September 30, 2001)
                NCUA Budget Process
                Management Consulting Review – Region VI
                Management Consulting Review – Region IV
                Management Review of the SmartPay Procurement and Travel Charge
                Card Programs




                                         23
Inspector General’s Semiannual Report        National Credit Union Administration




                       WE WANT TO HEAR FROM YOU



                 CALL THE OIG HOTLINE




                      TOLL FREE 1-800-778-4806

                      WASHINGTON METRO AREA
                          703-518-6357
       You may call ANONYMOUSLY, or request that YOUR call be kept
                          CONFIDENTIAL




                                        24
